 Department of Health and Human Services
                    OFFICE OF


               INSPECTOR GENERAL




    MEDICARE COMPLIANCE 

REVIEW OF AIBONITO MENNONITE


 GENERAL HOSPITAL, INC., FOR


      CALENDAR YEARS


        2010 AND 2011





   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    James P. Edert


                                               Regional Inspector General



                                                         June 2013


                                                       A-02-12-01032


                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices




    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as


 questionable, a recommendation for the disallowance of costs


 incurred or claimed, and any other conclusions and


 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating


 divisions will make final determination on these matters.


                                   EXECUTIVE SUMMARY



BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for the Hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and analysis
techniques. This review is part of a series of OIG reviews of Medicare payments to hospitals for
selected claims for inpatient and outpatient services.

Aibonito Mennonite General Hospital, Inc., (the Hospital) is a 150-bed acute care hospital
located in Aibonito, Puerto Rico. Medicare paid the Hospital approximately $8 million for 2,737
inpatient and 10,834 outpatient claims for services provided to beneficiaries during calendar
years 2010 and 2011 (audit period) based on CMS’s National Claims History data.

Our audit covered $1,647,558 in Medicare payments to the Hospital for 423 claims that we
judgmentally selected as potentially at risk for billing errors. These 423 claims had dates of
service in our audit period and consisted of 409 inpatient and 14 outpatient claims.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                  i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 354 of the 423 claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for
the remaining 69 claims, resulting in overpayments for inpatient claims of $279,471 for our audit
period. These overpayments occurred because the Hospital did not have adequate controls to
prevent incorrect billing of Medicare claims and did not fully understand the Medicare billing
requirements within the selected risk areas that contained errors.

RECOMMENDATIONS

We recommend that the Hospital:

         •		 refund to the Medicare contractor $279,471 in overpayments for 69 incorrectly
             billed inpatient claims and

         •		 strengthen controls to ensure full compliance with Medicare requirements.

AIBONITO MENNONITE GENERAL HOSPITAL COMMENTS

In its written comments on our draft report, the Hospital concurred with our findings and
recommendations and described corrective actions it had taken or planned to take to address
them.




                                               ii
                                                   TABLE OF CONTENTS



                                                                                                                                  Page

INTRODUCTION................................................................................................................1 


     BACKGROUND .............................................................................................................1 

        Hospital Inpatient Prospective Payment System ....................................................1 

        Hospital Outpatient Prospective Payment System..................................................1 

        Hospital Claims at Risk for Incorrect Billing .........................................................1 

        Medicare Requirements for Hospital Claims and Payments ..................................2 

        Aibonito Mennonite General Hospital ....................................................................2



     OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2 

         Objective .................................................................................................................2 

         Scope .......................................................................................................................2 

         Methodology ...........................................................................................................3 


FINDINGS AND RECOMMENDATIONS ......................................................................4 


     BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS..............................4 

         Incorrectly Billed as Inpatient.................................................................................4 

         Incorrectly Billed Diagnosis-Related Group Codes ...............................................4 


     RECOMMENDATIONS .................................................................................................5 


     AIBONITO MENNONITE GENERAL HOSPITAL COMMENTS ..............................5 


APPENDIXES

     A: RESULTS OF REVIEW BY RISK AREA

     B: AIBONITO MENNONITE GENERAL HOSPITAL COMMENTS




                                                                      iii
                                              INTRODUCTION



BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per­
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group. 2 All services and items within an APC
group are comparable clinically and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and analysis
techniques. Examples of these types of claims at risk for noncompliance included the following:

1
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                         1

          •   inpatient and outpatient claims paid in excess of charges, and

          •   inpatient claims billed with high severity level DRG codes.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, § 1833(e) of the Act
precludes payment to any provider of services or other person without information necessary to
determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, § 80.3.2.2,
requires providers to complete claims accurately so that Medicare contractors may process them
correctly and promptly. Chapter 23, § 20.3, of the Manual states that providers must use HCPCS
codes for most outpatient services.

Aibonito Mennonite General Hospital

Aibonito Mennonite General Hospital, Inc., (the Hospital) is a 150-bed acute care hospital
located in Aibonito, Puerto Rico. Medicare paid the Hospital approximately $8 million for 2,737
inpatient and 10,834 outpatient claims for services provided to beneficiaries during calendar
years 2010 and 2011 (audit period) based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $1,647,558 in Medicare payments to the Hospital for 423 claims that we
judgmentally selected as potentially at risk for billing errors (see Appendix A). These 423




                                                   2

claims had dates of service in our audit period and consisted of 409 inpatient and 14 outpatient
claims.

We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements but did not subject
claims to medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork during October and November 2012.

Methodology

To accomplish our objective, we:

   •		 reviewed applicable Federal laws, regulations, and guidance;

   •		 extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
       Claims History file for our audit period;

   •		 used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •		   judgmentally selected 423 claims (409 inpatient and 14 outpatient) for detailed review;

   •		 reviewed available data from CMS’s Common Working File for the selected claims to
       determine whether the claims had been cancelled or adjusted;

   •		 requested that the Hospital conduct its own review of the selected claims to determine
       whether the services were billed correctly;

   •		 reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the selected claims;

   •		 reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •		 discussed the incorrectly billed claims with Hospital personnel to determine the


       underlying causes of noncompliance with Medicare requirements;




                                                 3

    •    calculated the correct payments for those claims requiring adjustments; and

    •    discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                               FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 354 of the 409 inpatient and all
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 69 inpatient claims, resulting in overpayments of
$279,471 for our audit period. These overpayments occurred because the Hospital did not have
adequate controls to prevent incorrect billing of Medicare claims and did not fully understand the
Medicare billing requirements within the selected risk areas that contained errors. For a detailed
list of the risk areas that we reviewed and associated billing errors, see Appendix A.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 69 of the 409 selected inpatient claims, which
resulted in overpayments of $279,471.

Incorrectly Billed as Inpatient

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 37 of the 409 selected claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient with observation services. The Hospital
attributed the incorrect billing to human error. As a result of these errors, the Hospital received
overpayments of $102,337. 3

Incorrectly Billed Diagnosis-Related Group Codes

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, the Manual, chapter 1,

3
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed or adjudicated by the Medicare
administrative contractor prior to the issuance of our report.


                                                         4

§ 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately ….”

For 32 of the 409 selected claims, the Hospital billed Medicare for incorrect DRG codes. The
Hospital stated these errors occurred because of misinterpretation of coding guidelines or human
error. As a result of these errors, the Hospital received overpayments of $177,134.

RECOMMENDATIONS

We recommend that the Hospital:

         •		 refund to the Medicare contractor $279,471 in overpayments for 69 incorrectly
             billed inpatient claims, and

         •		 strengthen controls to ensure full compliance with Medicare requirements.

AIBONITO MENNONITE GENERAL HOSPITAL COMMENTS

In its written comments on our draft report, the Hospital concurred with our findings and
recommendations and described corrective actions it had taken or planned to take to address
them. The Hospital’s comments are included as Appendix B.




                                                5

APPENDIXES


                    APPENDIX A: RESULTS OF REVIEW BY RISK AREA




                                                                                      Claims
                                                                     Value of          With         Value of
                                                      Selected       Selected         Over­          Over­
                   Risk Area                          Claims         Claims          payments       payments
Inpatient
Claims Paid in Excess of Charges                          67          $246,378           37          $102,337
Claims Billed With High Severity Level
                                                         342          1,362,126          32           177,134
Diagnosis Related Group Codes
  Inpatient Totals                                       409        $1,608,504           69          $279,471

Outpatient
Claims Paid in Excess of Charges                          14            $39,054           0                  $0
 Outpatient Totals                                        14            $39,054           0                  $0

  Inpatient and Outpatient Totals                        423        $1,647,558           69          $279,471

Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
billing errors we found at the Hospital. Because we have organized the information differently, the information in
the individual risk areas in this table does not match precisely with this report’s findings.
                                                                                                                     Page 1 of 2


APPENDIX B: AIBONITO MENNONITE GENERAL HOSPITAL COMMENTS

                                                                                         Sirviendo con Amor Cristiano




  \1
  •
                  _ H_ o _sF'
                            _ ::t:_T Fl
                                     _ L _ r::s_e n

                       me:non:c-rt=t iNC.
                                                  _ e _RFl
                                                        _ L_


                                                                                                 CertificatWn by the
                                                                                          Joint Commission on Accredilation
                                                                                             of Healthcare Organil.lllions


      April 22, 2013

      Report Number: A-02-12-01032

      Department Of Health Human Services
      Office of I nspector General
      Office Of Audit Services Region II
      Jacob K Javitts Federal Building
      26 Federal Plaza, Room 3900
      New York, NY 10278

      James P. Edert
      Regional Inspector General
      For Audit Services

      Dear Mr. Edert

      In compliance with your request concerning the Medicare Compliance Review
      of our hospital for calendar years 2010 and 2011, we include our comments
      and the description of the corrective actions taken and planned. We are in
      concurrence with your recommendation:

                            Risk Areas Reviewed and Billing Errors

              Risk Areas            Error Billing vs                  Corrective Action Taken
                                    Samp le Claims
      Inpatient claims paid in                           We are doing concurrent evaluati ons with
                                          37/67
      excess of charges                                  Admission and Utilization Review Personnel.
      2010 and 2011:                                     We have been more emphatic in requesting
      Level of Care - Inpatient                          review t o the physicians in order esta blish
      to Observation Status                              the level of care (Inpatient vs. Observati on
                                                         Status) .

                                                         We are doing r etrospective evaluation with
                                                         Information Management Information
                                                         Personnel requesting review to the physician
                                                         in order establish t he level of care (Inpatient
                                                         vs. Observation Status), i ncluding the use of
                                                         code 44.

                                                         We have repeatedly educated our physicians
                                                         about assigning the correct level of care.




  AIBONITO: Apartado 1379 Aibonito, PR 00705- Tel. (787) 954·8001 Fax (787) 735-7172      Toda correspondencia oficial debera
  CAVEY: Apartado 372800 Cayey, PR 00737 • 2800 Tel. (787) 535-1001 Fax (787) 535·1034    ser dirigida a las Oficinas Corporativas.
                                                                                                                       Page 2 of 2






   Page 2.    April 22, 2013    James P. Edert Regional Inspector General For Audit Services
   Report Number: A-{)2-12-01032



                               Risk Areas Reviewed and Billing Errors

             Risk Areas              Error Billing vs                    Corrective Action Taken
                                     Sample Claims


   Inpatient Claims Billed                                   We added another level of review in order to
   with High Severity
                                           32/342            address the issue of validating our codes and
   Level Diagnosis                                           meeting the coding standard ( concurrent
   Related Groups Codes                                      and retrospectively)
   2010 and 2011                                            We created a review form to validate the
                                                            documentation in the record in order to
                                                            perform a concurrent and retrospective
                                                            review. This will improve our compliance and
                                                            help improve our documentation and
                                                            validation of codes. Enclosed example form.                       *
                                                            Our personnel are doing more queries
                                                            concurrently and retrospective.

                                                            We have repeatedly educated our physicians
                                                            on improving the documentation of the
                                                            record and the need for more detailed
                                                            information

                                                            We will perform internal audit following the
                                                            guidelines used in the review. This will be
                                                            done every 3 months.



  Inpatient Total                         69/409


  Sincerely;




  Pedro L. Mel' ndez Rosario, MHSA
  Executive Di ector
  Mennonite General Hospitai,Inc.




• Office of Inspector General note: We did not include the example of the Hospital 's patient review fonn and accompany ing
  documentation because of its length.
